USAID
OFFICE OF INSPECTOR GENERAL


Audit of USAID's Advances and Related Internal Controls
for Fiscal Year 2000




Audit Report (Report No. 0-000-01-003-F)
February 15, 2001




                                                U.S. Agency for
                                     International Development
U.S. AGENCY FOR
 INTERNATIONAL
  DEVELOPMENT




        MEMORANDUM FOR CFO, Michael T. Smokovich

        FROM:           IG/A/FA, Alvin A. Brown

        SUBJECT:        Audit of USAID’s Advances and Related Internal Controls for
                        Fiscal Year 2000 (Report No. 0-000-01-003-F)

        This memorandum audit report is our report on U.S. Agency for International Development’s
        (USAID) advances. This report is part of our review of USAID’s consolidated financial
        statements as required by the Government Management Reform Act of 1994. This Act
        requires USAID to prepare and submit audited financial statements for the preceding fiscal
        year that covers all accounts and associated activity of the agency. This report is one in a
        series of reports that communicate the results of our audit.

        This audit was performed to determine whether USAID’s advance account balance was
        reliable as of September 30, 2000. We were unable to determine whether USAID’s advance
        account balance was reliable as of September 30, 2000.

        We identified four internal control weaknesses without final corrective action that were
        reported in our previous audit report1, and two new internal control weaknesses. This report
        makes one recommendation to improve USAID’s accounting for advances and strengthen
        related internal controls. In responding to our draft audit report and its recommendation, the
        Chief Financial Officer has agreed with our recommendation and taken action to improve
        USAID’s accounting for advances, strengthen internal controls, and to comply with
        applicable laws and regulations.

        Based on Management’s acceptance of the audit recommendation and action taken, we
        accept your Management’s decision and the corrective action taken as final action for the
        audit recommendation. Refer to Appendix II “USAID Management Comments”.

        I would like to express my sincerest appreciation for the courtesies extended by your staff to
        the auditors.

                  1
                        Audit of USAID Advances and Related Internal Controls for Fiscal Year 1999 (Audit Report
        No. 0-000-00-003-F, February 1, 2000).
Background
USAID was created in 1961 to facilitate the United States' foreign policy interests by
promoting broad-based sustainable development and providing humanitarian assistance.
USAID has an overseas presence in over 70 countries, which include 42 fully operational
missions.

The Office of Management and Budget2 describes advances as a payment disbursed from
Treasury funds made by a check or via electronic transfer to a grantee prior to actual outlays
of cash for grant expenses. These advances are primarily made to grantees through USAID’s
Letter of Credit Support System and the Department of Health and Human Services’ (DHHS)
Payment Management System.

In previous years, the Office of Inspector General’s (OIG) ability to express an opinion was
impaired by inadequate financial accounting systems and related material weaknesses in
internal controls. The OIG concluded that these deficiencies in the financial accounting
systems3 created risks that the financial statements could contain material misstatements.
The amount of substantive testing required to express an opinion on the fairness of the
financial statements would have been prohibitive and unattainable by the statutory deadline
of March 1 for submitting the audited financial statements to the Office of Management and
Budget (OMB). Accordingly, the OIG did not express an opinion on the fairness of the
financial statements.

In our previous audit report4, we reported that USAID did not properly identify, record, and
report the $1.1 billion of advances made to grantees through its letter of credit system.

In fiscal year 1999, we reported that USAID’s grant financial system did not provide
effective control and accountability over advances disbursed through its letter of credit
system. This condition was attributed to USAID’s continued use of the cash pooling method
to account for its advances to grantees. Under this method, the Office of Financial
Management does not record the advance against the grant for which the original obligation
was made. Instead, advances are pooled together and recorded at the grantee level, without
         2
                 Office of Management and Budget Circular A-110, dated August 29, 1997, Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and
other Non-Profit Organizations.

         3
                  According to OMB Circular A-127 and the Chief Financial Officers’ Act, a financial
management system includes supporting systems that contain the information needed to carry out financial
management functions, manage financial operations, and report financial status information. The systems
provide the information managers need to (1) carry out their fiduciary responsibilities; (2) deter fraud, waste,
and abuse; and (3) relate financial consequences to agency program performance. Thus, in addition to basic
accounting functions, USAID's financial management system includes supporting systems that perform
performance measurement, budget, and procurement functions.

         4
                Audit of USAID Advances and Related Internal Controls for Fiscal Year 1999 (Audit Report
No. 0-000-00-003-F, February 1, 2000).


                                                         2
regard to the corresponding grant obligation. The OIG considers this method of accounting
for advances to grantees as a material weakness in USAID’s internal control system. This
material weakness impacts USAID’s ability to prepare auditable financial statements. The
weakness further limits USAID’s ability to (1) provide its managers with financial and
budgetary information, and (2) estimate expenditures against the outstanding advances at
fiscal year-end. In addition to the impact on USAID financial statement-producing
capabilities, USAID does not have an audit trail to trace specific disbursements through
liquidation at the appropriate obligation level.

USAID agreed with our prior recommendations to move to grant level advances, pending a
final decision on this matter, the Agency will continue to use the pooled advance method for
its letter of credit advances.

Because of the problems noted in previous years’ audits, we agreed with USAID’s
management to focus our fiscal year 2000 audit efforts on selected material line items
reported on the balance sheet.




                                              3
Audit Objective
This audit is part of our annual review of USAID’s consolidated financial statements as
required by the Government Management Reform Act of 1994. For fiscal year 2000, the
Office of Inspector General agreed with USAID’s Management to concentrate our audit on
selected major balance sheet line items.

In planning and performing our audit of USAID’s Advances and Related Internal Controls
for fiscal year 2000, we considered its internal control structure in order to determine our
auditing procedures for the purpose of reporting an opinion on the reliability of the advance
balance and not to provide assurance on the internal control structure. This report does not
contain an opinion about the fairness of the statements taken as a whole.

The objective of this audit is:

       Was USAID’s Advance Account Balance Reliable as of September 30, 2000?

The objectives of internal control are to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

   S   Transactions are properly recorded and accounted for to permit the preparation of
       reliable financial reports and maintain accountability over assets.;

   S   Funds, property, and other assets are safeguarded against loss from unauthorized
       acquisition, use, or disposition.

   S   Transactions, including those related to obligations and costs, are executed in
       compliance with laws and regulations that could have a direct and material effect on
       the financial statements and other laws and regulations that the Office of management
       and Budget or USAID management has identified as being significant for which
       compliance can be objectively measured and evaluated.

Our consideration of internal control would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards issued
by the American Institute of Certified Public Accountants, reportable conditions are matters
coming to our attention relating to significant deficiencies in the design or operation of
internal control that, in our judgment, could adversely affect USAID’s ability to record,
process, summarize, and report financial data consistent with the assertions of management
in the financial statements. Material weaknesses are reportable conditions in which the
design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that errors or irregularities in amounts, which would be material
in relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.




                                               4
See Appendix I for a discussion of the scope and methodology for the audit.


Audit Findings

Was USAID’s Advance Account Balance Reliable as of
September 30, 2000?
We were unable to determine whether USAID’s advance account balance was reliable as of
September 30, 2000. This occurred because of the following deficiencies:

(1)    USAID’s continued use of the cash pooling method of accounting for advances
       hinders its ability to report the accurate status of financial and budgetary resources at
       the obligation and appropriation level.

(2)    USAID did not promptly record 603 grant agreements and modifications in the grant
       payment processing system totaling approximately $633 million.

(3)    USAID transferred unliquidated obligations totaling about $1.3 billion in fiscal year
       1999 to DHHS’s Payment Management System without verifying the accuracy of the
       transferred balances.

(4)    USAID did not follow its established policy of performing a monthly reconciliation
       between the advance subsidiary ledger and the USAID general ledger. At September
       30, 2000, there was an unexplained difference of $126 million between USAID’s
       general ledger and its advance subsidiary ledger.

(5)    USAID’s general ledger system did not provide an adequate audit trail for the $1.4
       billion advances.

(6)    USAID did not promptly record expenditures totaling about $767 million to its
       general ledger.

USAID agreed with our prior recommendations to change its methodology for disbursing
advances to grantees, which would have corrected items one to four above that were
previously reported. However, in fiscal year 2000, OMB issued a proposed amendment to
Circular A-110 that proposed mandatory requirements for Federal Agencies to offer the
pooled advance method to grantees. Because of this proposed change in regulations, USAID
decided, with our concurrence, that the only practical course of action was to suspend its
conversion of grantees to the obligation method of disbursing advances to grantees pending a
final ruling by OMB. Therefore, USAID continues to use the pooled method for disbursing
advances to grantees.

To date, OMB has not issued a final ruling on the pooling of advance issue. However, per
the Federal Register Notice on the Federal Financial Assistance Management Improvement



                                               5
Act of 1999 dated January 17, 2001, the CFO Council’s Grants Management Committee is
clarifying differing positions on the pooled method issue for advances and will specify when
pooling is applicable.

The following section presents our detailed findings and one new recommendation to
improve USAID’s accounting for advances, strengthen its related internal controls, and
comply with applicable laws and regulations.


Disbursing Advances under Cash Pooling Method Hinders Financial Statement
Preparation

In our previous audit report6, we reported that USAID’s Financial Management System does
not provide effective control and accountability over advances disbursed through its letter of
credit system. USAID records do not reflect reliable, current, and complete disclosure of
information on the awards, authorizations, obligations, advances, and expenditures.

Under USAID’s present system, letter of credit advances are processed using DHHS’s
Payment Management System. In this system, recipients are allowed to receive advances7
based on the obligated balance (cash pool amount) available for all grants awarded to their
organization. At the time of their advance request, recipients are not required to identify the
source and application of requested advances. Instead, advances are charged using a billing
algorithm that arbitrarily charges the advances at the obligation level based on the originally
established date of the grant obligation agreements. Then recipients are instructed to submit
their advance liquidation reports outlining their actual cash disbursements 45 days after each
fiscal quarter end. These expenditures are recorded in the financial system based on actual
disbursements; however, the initial charges that were based on the billing algorithm are not
adjusted to reflect these actual reported expenditures. Therefore, in DHHS’s Payment
Management System, the obligation amount for one grant will be reduced to account for the
reported expenditures of another grant.

At September 30, 2000, we attempted to confirm the advance balances for 64 recipient
organizations valued at $123 million. The USAID advance subsidiary ledger, maintained by
DHHS, showed approximately $798 million for the 301 recipient organizations in the
universe. To confirm the accuracy of the advance balance, we used a two-tier approach: (1)
confirming at the individual grant level and (2) confirming at the recipient organization level.

We noted the following:



        6
                Audit of USAID Advances and Related Internal Controls for Fiscal Year 1999 (Audit Report
No. 0-000-00-003-F, February 1, 2000).

        7
                   A payment made to a grantee upon its request either before the grantee has made outlays or
through the use of predetermined payment schedules. Advances represent cash drawdowns made by the grant
recipient to meet immediate cash needs.


                                                      6
    1. We were unable to confirm the accuracy of the $123 million advances for the 439
       grants selected at the individual grant level because of differences in the information
       reported by USAID and the recipient organizations.

    2. We were unable to confirm the accuracy of advances reviewed at the aggregate level
       for 51 recipient organizations (80 percent) because of differences in the information
       reported by USAID and the recipient organizations.

As result of our inability to confirm the advance balance of the recipient organizations, the
OIG was unable to determine the accuracy of the $1.254 billion of advances processed using
DHHS’s Payment Management System reported in USAID’s general ledger at September 30,
2000.

As agreed to in our previously issued report, USAID is in the process of converting recipients
to a grant-by-grant methodology, which will require recipients to identify requested advances
at the obligation and appropriation level. The status of the conversion is outlined in Chart 1
on page 9 of this report.


Updating Systems with Grant Award Information

In our previous report8, we reported that the USAID had not updated its grant payment
processing system to reflect grant agreement and amendments recorded in the New
Management System (NMS) or Mission Accounting and Control System (MACS). At
September 30, 1999, USAID had a backlog of 881 grant agreements and/or amendments with
a value of $1.2 billion. We recommended that USAID develop procedures to ensure that
grant agreements and amendments are promptly recorded in its grant payment processing
system and further develop ways to integrate its various financial systems. USAID
concurred with our recommendation but has not resolved this deficiency.

At September 30, 2000, our audit showed USAID still has a backlog of 603 grant agreements
and/or amendments with a value of $633 million. USAID personnel stated the following
caused this backlog:

    1. USAID does not have a fully integrated financial accounting system that is capable
       of interfacing with its grant payment processing system; and

    2. USAID overseas missions do not consistently forward copies of grant amendments
       and/or modifications to the USAID Office of Financial Management.

Approximately 355 of 603 grant agreements and/or amendments with a value of $293 million
were received by USAID, but were not recorded in its grant payment processing system.
These grant agreements and/or amendments have remained unrecorded for a period in excess
of 120 days. The OIG considers USAID’s continued failure to promptly record grant
        8
                Audit of USAID Advances and Related Internal Controls for Fiscal Year 1999 (Audit Report
No. 0-000-00-003-F, February 1, 2000).


                                                   7
agreements and/or amendments in its grant payment processing system as a material internal
control weakness. Table 1 on the following page illustrates the status of the grant agreements
or amendments:

                                            Table 1
                           Status of Grant Agreements/Modifications
                                     At September 30, 2000

                           Number of         Absolute    Number of Days
                          Agreements          Value       Outstanding
                              147           $198,933,967     60-90
                              101            141,942,792    91-120
                              355            292,878,644    121-270
                              603           $633,755,403

USAID agreed to implement our previous recommendation; therefore, this report does not
contain a recommendation for further management action in this area. We will continue to
monitor the progress of this area in our fiscal year 2001 audit.


Reconciling Letter of Credit Balances

In our previous audit report9, we reported that USAID transferred an estimated $1.3 billion of
unliquidated obligations for 301 recipient organizations to DHHS’s Payment Management
System without verifying the accuracy of the transferred balances. We recommended that
USAID perform a reconciliation to verify the accuracy of balances transferred to DHHS.
USAID concurred with our finding and recommendation and proposed corrective action for
this deficiency.

Our current audit covering fiscal year 2000, showed that USAID reconciled unliquidated
obligation balances for 106 of the 301 recipient organizations transferred to DHHS’s
Payment Management System. USAID/FM stated that a reconciliation would be completed
by December 31, 2000; however, due to the large amount of resources needed to perform this
reconciliation, USAID/FM has revised this date to September 30, 2001. As a result, the OIG
has been unable to determine the accuracy of the following:

    1. The $1.254 billion advance balance reported in USAID’s general ledger. Refer to
       additional information on page 6 of this report.

    2. The $135 million advance balance processed by USAID using the old Letter of Credit
       System that they have not been able to liquidate. USAID discontinued disbursing
       advances through this system as of December 31, 1998.



        9
                Audit of USAID Advances and Related Internal Controls for Fiscal Year 1999 (Audit Report
No. 0-000-00-003-F, February 1, 2000).


                                                   8
          USAID agreed to implement our previous recommendation; therefore, this report does not
          contain a recommendation for further management action in this area. We will continue to
          monitor the progress of this reconciliation in our fiscal year 2001 audit. Chart 1 on the
          following page illustrates the progress of the reconciliation.

                                                        Chart 1
                                         Reconciliation of Recipient Organizations
                                               (As of September 30, 2000)




    Reconciled                              106




  Not Reconciled                                                     195




Total Recipients                                                                                      301


                        25      50     75     100    125 150 175 200               225    250     275    300     325

          Reconciling the General Ledger to the Advance Subsidiary Ledger

          In our previous audit report10, we reported that USAID’s subsidiary ledger did not reconcile
          to its general ledger. We recommended that USAID perform periodic reconciliations
          between its subsidiary ledger and general ledger. USAID concurred with our finding and
          recommendation and proposed corrective action for this deficiency.

          At September 30, 2000, USAID had not provided an explanation for the $126 million
          difference between the $924 million11 advance balance reported in its general ledger and the
          $798 million advance balance reported in the advance subsidiary ledger. This occurred
          because USAID did not follow its procedure that requires a monthly reconciliation between
          its general ledger and subsidiary ledger. USAID informed us that the lack of resources

                   10
                          Audit of USAID Advances and Related Internal Controls for Fiscal Year 1999 (Audit Report
          No. 0-000-00-003-F, February 1, 2000).

                   11
                            Account No. 1410.75 “Letter of Credit Advance-HHS processed” $1.254 billion of letter of
          credit advances adjusted for unrecorded 3rd quarter expenditures of $330 million.


                                                               9
impaired its ability to perform the monthly reconciliation. As a result, the OIG has been
unable to determine the reliability of the advance balance reported in USAID’s general
ledger.

USAID agreed to implement our previous recommendation; therefore, this report does not
contain a recommendation for further management action in this area. We will continue to
monitor the progress of this reconciliation during our fiscal year 2001 audit.


Supporting Advance Transactions – Audit Trail

USAID’s financial accounting system does not provide an adequate audit trail for its letter of
credit advances as required by the Joint Financial Management Improvement Program
(JFMIP) and the Standard General Ledger. This deficiency was caused by the continued use
of the cash pooling method to account for advances (See page 4 for additional details), and
the lack of integrated financial accounting systems within USAID. As a result, the OIG was
unable to follow the transactions trail and determine the reliability of the $1.4 billion
advances reported in the general ledger.

Under USAID’s present system, recipients are allowed to receive advances based on the
obligated balance (cash pool amount) available for all grants awarded to their organization.
At the time of request, recipients are not required to identify the source and application of
requested advances. Instead, advances are allocated using a billing algorithm that arbitrarily
charges the advances at the obligation level based on the established date of the grant
agreements. Recipients are required to submit their advance liquidation reports outlining
their actual cash disbursements 45 days after each fiscal quarter. These expenditures are
recorded in the financial system based on actual disbursement; however, the advances
charged based on the billing algorithm are not adjusted to reflect these actual reported
expenditures. The advance and expenditure information is electronically transmitted to
USAID. This information is summarized and recorded in USAID’s general ledger through
the use of journal vouchers.

The Standard General Ledger System and the JFMIP “Core Financial System Requirements”
provide the following guidance:

   1. The United States Standard General Ledger requires transactions be traced back to the
      source/point of entry in the feeder systems and to supporting documentation as
      required by the Federal Financial Management Improvement Act of 1996.

   2. The JFMIP “Core Financial System Requirements” requires that a core system:

       a) Provide audit trails to trace transactions from source documents, original input,
          other systems, system-generated transactions and internal assignment transactions
          through the system, and provide transaction detail to support account balances.




                                              10
        b) Provide audit trails to trace source documents and transactions through successive
           levels of summarization to the financial statements and the reverse.

        c) Select items for review based on user-defined criteria by type of transaction.

USAID has agreed to implement our previous recommendation to convert recipients to a
grant-by-grant methodology and integrate its financial accounting systems; therefore, we
make no recommendation in this area. Refer to page 6 for additional detail.


Recording Expenditures to the General Ledger

USAID was unable to promptly record third (3rd) and fourth (4th) quarter expenditures of
about $767 million to its general ledger. USAID noted that the expenditures were not
promptly recorded because of the following:

    1. DHHS experienced delays in processing 3rd and 4th quarter expenditures during the
       implementation of its new Payment Management System. DHHS submitted the 3rd
       quarter expenditures on November 6, 2000, approximately 67 days after the deadline
       of August 30, 2000.

    2. USAID’s financial accounting system was unable to interface directly with various
       financial accounting systems. USAID used a manual process to analyze and record
       expenditures to its General Ledger System.

    3. DHHS experienced delays in receiving liquidation reports from recipients within the
       established reporting deadlines.

As a result, USAID made year-end adjustments of $767 million (61 percent) to the $1.254
billion of letter of credit advance balance reported at September 30, 2000 to reflect recipient
expenditures of $330 million for the 3rd quarter (April-June.) and an estimated $437 million12
for the 4th quarter (July-September). Due to time constraints, we were unable to determine
the reasonableness of these adjustments. We believe that a 61 percent adjustment is material
to the advance and prepayment line.

USAID provided documentation of the procedures used to report fiscal year 2000
expenditures; therefore, this report does not contain a recommendation for further
management action in this area.




        12
                 USAID estimate is based on the advances and subsequent expenditures used to liquidate the
advances. A liquidation rate of 82% is applied to fiscal year 2000 4th quarter outstanding advances of $533
million.


                                                     11
Management Comments and Our Evaluation
In commenting on our draft audit report and its recommendations, the Chief Financial Officer
has agreed with our audit findings and one recommendation to improve USAID’s accounting
for advances, strengthen internal controls, and to comply with applicable laws and
regulations.

With regards to recommendation no. 1, management stated they would document the
procedure used to estimate the 4th quarter expenditure for fiscal year 2000 as recommended.
Management has stated this procedure will be finalized by February 28, 2001.

Based on Management’s acceptance of the audit recommendation and action taken, we
accept your Management’s decision and the corrective action taken as final action for the
audit recommendation.

With regards to reconciling letter of credit balances, management stated they would continue
the reconciliation work cited in the draft audit report. Once the CFO Council’s Grant
Management Committee issues final instructions on the “pooling issue”, management will
consult with the OIG on the next steps.




                                             12
                                                                                 APPENDIX I
                                                                                   Page 1 of 1



                    SCOPE AND METHODOLOGY


SCOPE
The scope of our work was not sufficient to enable us to express, and we do not express, an
opinion on the financial statements taken as a whole. We were unable to obtain sufficient
competent evidential matter upon which to base an opinion due to our inability to confirm the
advance balance and material weaknesses in internal controls. Accordingly, our audit was
not performed in accordance with generally accepted auditing standards and Government
Audit Standards, issued by the Comptroller General of the United States.

As a result of the internal control weaknesses noted in our previous audit report, we agreed
with USAID’s management to focus our fiscal year 2000 audit efforts on selected material
line items reported on the balance sheet. We focused our audit effort on the $1.4 billion of
advances issued under the letter of credit system of a total $1.7 billion of advances reported
as a line item for fiscal year ended September 30, 2000. The $1.4 billion of advance balance
consisted of the following:

(1) “Advances – Letter of Credit (LOC) – Department of Health and Human Services
    Managed” processed using the Department of Health and Human Services Payment
    Management System with a reported advance balance of $1.254 billion as of September
    30, 2000.

(2) “Advances – Contractor/Grantee processed by the USAID Office of Financial
    Management using the old legacy system with a reported advance balance of $135
    million as of September 30, 2000.

A materiality threshold of 5 percent was calculated. Based on USAID 1999 Net Cost of
Operations of $6.2 billion, any amount over $335 million will be considered material and
included in our review of USAID 2000 financial statements. The advances for fiscal year
1999 were $1.3 billion. Accordingly, the materiality level for this audit of advances was $65
million (5 percent of $1.3 billion).

METHODOLOGY
To accomplish our specific audit objective, we

•   obtained an understanding of the components of USAID’s internal controls and assessed
    the level of control risk relevant to the assertions embodied in the class of transactions,
    the advance balance, and related disclosures in the financial statements;
•   performed tests of compliance with laws and regulations that could have a direct and
    material effect on the advance line items in USAID’s financial statements;

•   examined, on a test basis, evidence supporting the advance balance and related
    disclosures;

•   assessed the accounting principles used and significant estimates made by management in
    developing the proposed amounts for the advance balance audited;

•   evaluated the overall presentation for the advance balance; and determined compliance
    with laws and regulations; and

•   discussed OIG findings and recommendations for improvement with the Office of
    Financial Management.
                                                                                      APPENDIX II
                                                                                        Page 1 of 1


               USAID MANAGEMENT COMMENTS




                                                          February 2, 2001


MEMORANDUM

TO:             IG/A/FA, Alvin A. Brown

FROM:           CFO, Michael T. Smokovich

SUBJECT:         Audit of USAID’s Advances and Related Internal Controls for Fiscal Year 2000

         We have reviewed the draft report on your audit of the advances and related internal controls
for FY 2000 and agree with your findings and recommendation. We will document the procedure
used to estimate the 4th quarter expenditure for FY 2000 as recommended. This procedure will be
finalized by February 28, 2001. We will also continue the reconciliation work cited in the draft
report. Once the CFO Council's Grant Management Committee issues final instructions on the
"pooling" issue, we will consult with you on the next steps.

        I would like to thank you and your staff for the professional and cooperative manner in which
the audit was conducted.


Cc: M/CFO, S. Owens
    M/CFO, T. Cully
    M/MPI, S. Malone-Gilmer
    M/FM, D. Ostermeyer
    M/FM/CAR, T. Vapniarek
    M/FM/CAR, E. White
    M/FM/A, J. Swan
    M/FM/CMP, B. Leonard
    M/FM/CMP, B. Maipid-Smith
    M/FM/CMP, J. Dubois




                                               1300 Pennsylvania Avenue, NW
                                                   Washington, DC 20523
